  ;-.             h-                 -   --   - - --                                              -




(08-93)
United States Government                                                                   Department of Energy


memorandum
          DATE:        August 13, 2007                 1                   Audit Report Number: OAS-L-07-20

    REPLY TO
    ATTN OF:           IG-32 (A07PR058)

    SUBJECT:           Audit of Executive Compensation at Selected Office of Environmental Management Sites

           TO:         Chief Operating Officer, Office of Environmental Management


                       INTRODUCTION AND OBJECTIVE

                       As part of a Department of Energy-wide audit of executive compensation, we
                       reviewed two Office of Environmental Management sites. Specifically, we reviewed
                       executwe compensation costs incurred and claimed for lIscal Years .u03, 2004, and
                       2005 at the East Tennessee Technology Park and the Savannah River Site.

                       The amount of executive compensation that can be reimbursed to Department of
                       Energy (Department) contractors is limited by legislation, regulations, and contract
                       terms. For example, reimbursable compensation is limited to the annual cap
                       determined by the Administrator, Office of Federal Procurement Policy (OFPP). In
                       addition, Department of Energy Acquisition Regulations, Federal Acquisition
                       Regulations, Department policies.and guidance, as well as contract provisions
                       establish limitations and guidelines for executive compensation. Generally, executive
                       compensation includes salaries, bonuses, incentive compensation, pension
                       contributions, health benefits, and other fringe benefits.

                       The objective of our audit was to determine whether executive compensation
                       reimbursed to contractors was allowable, consistent with contract terms, and
                       conformed with applicable Federal requirements and guidance.

                       CONCLUSIONS AND OBSERVATIONS

                        For the two Office of Environmental Management sites we reviewed, we found that
                        executive compensation reimbursed to contractors did not exceed the annual cap
                        determined by the Administrator, OFPP, and the contractors complied with applicable
                       .provisions of procurement regulations, Department policies and guidance, and their
                        contracts.

                       At the East Tennessee Technology Park, we observed that in Fiscal Year 2005 the
                       contractor had inadvertently charged its contract $17,189 for payroll taxes that were
                       applicable to unallowable salary. When we brought this issue to the contractor's
                       attention, the contractor promptly removed these charges from the contract.
SCOPE AND METHODOLOGY

The Department-wide audit was conducted from July 2006 to July 2007 at the Office
of Management, Department support offices and site offices, and 13 contractor sites.
Office of Environmental Management sites included in the audit were the East
Tennessee Technology Park in Oak Ridge, Tennessee, and the Savannah River Site in
Aiken, South Carolina. The scope of the Department-wide audit covered executive
compensation costs incurred and claimed for Fiscal Years 2003, 2004, and 2005 and
included the compensation of about 200 executives including facility directors, deputy
directors, key personnel, and other senior management employees. Compensation
included salaries, bonuses, incentive compensation, pension contributions, health
benefits, other fringe benefits, travel and relocation reimbursements, and any other
payments made to the executive or on behalf of the executive.

To accomplish the audit objective, we identified executives and their compensation;
verified compensation to accounting records and supporting documentation; and,
tested compliance with legislation, regulations, Department policies and guidance, and
contracts.

We conducted the audit in accordance with generally accepted-Gov~iiment auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. Also, we
considered the establishment of performance measures in accordance with the
Government Performanceand Results Act of 1993, as they related to the audit
objective, and found that the,Department had not established performance measures
specifically addressing executive compensation. We relied on computer-processed
data to accomplish the audit objective. When appropriate, we performed limited test
work of data reliability during our audit and determined that we could rely on the
computer-processed data.

We appreciate the cooperation of your staff during our review. Because no formal
recommendations are being made in this report, a.formal response is not required.




                                      Fredrick G. Pieper, Director
                                      Energy, Science and Environmental
                                        Audits Division
                                      Office of Inspector General

cc:   Director, Office of Management
      Team Leader, Audit Liaison Team, CF-1.2
      Audit Liaison, EM-33
      Audit Liaison, MA-70
      Audit Liaison, SR
      Audit Liaison, SC-OR

                                  2
